No. 20-334
IN THE SUPREME COURT OF THE UNITED STATES
CITY OF SAN ANTONIO, TEXAS, ON BEHALF OF
ITSELF AND ALL OTHER SIMILARLY SITUATED
TEXAS MUNICIPALITIES, PETITIONER
v.
HOTELS.COM, L.P., ET AL.
___________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION OF THE UNITED STATES AS AMICUS CURIAE SUPPORTING
PETITIONER FOR LEAVE TO PARTICIPATE IN ORAL ARGUMENT AND FOR
DIVIDED ORAL ARGUMENT, via e-mail and first-class mail, postage prepaid, this 29th day
of March, 2021.
[See Attached Service List]
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 29, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0334
CITY OF SAN ANTONIO, TEXAS, ET AL
HOTELS.COM, L.P., ET AL

DANIEL L. GEYSER
ALEXANDER DUBOSE & JEFFERSON LLP
WALNUT GLEN TOWER
8144 WALNUT HILL LANE,
STE 1000
DALLAS, TX 75231
214-396-0441
DGEYSER@ADJTLAW.COM
THOMAS M. PETERSON
MORGAN LEWIS & BOCKUS LLP
ONE MARKET STREET, SPEAR TOWER
SAN FRANCISCO, CA 94105
415-442-1000
TMPETERSON@MORGANLEWIS.COM
415-442-1001(Fax)
DAVID B. SALMONS
MORGAN, LEWIS & BOCKIUS LLP
1111 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004
202-373-6283
DAVID.SALMONS@MORGANLEWIS.COM
ANNE MARIE SEIBEL
BRADLEY ARANT BOULT CUMMINGS LLP
1819 5TH AVENUE NORTH
BIRMINGHAM, AL 35203
205-521-8386
ASEIBEL@BRADLEY.COM

RICHARD A. SIMPSON
WILEY REIN LLP
1776 K STREET, N.W.
WASHINGTON, DC 20006
202-719-7000
RSIMPSON@WILEYREIN.COM
BRIAN S. STAGNER
KELLY, HART & HALLMAN LLP
201 MAIN STREET
SUITE 2400
FORT WORTH, TX 76102
817-878-3567
BRIAN.STAGNER@KELLYHART.COM

